No. _______________
IN THE SUPREME COURT OF THE UNITED STATES
______________________________
STANLEY JALOWIEC,
Petitioner,
v.
STATE OF OHIO,
Respondent.
______________________________
On Petition for Writ of Certiorari
To the Supreme Court of Ohio
______________________________________________________________________________
APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
______________________________________________________________________________

No. _______________
IN THE SUPREME COURT OF THE UNITED STATES
______________________________
STANLEY JALOWIEC,
Petitioner,
v.
STATE OF OHIO,
Respondent.
______________________________
On Petition for Writ of Certiorari
To the Supreme Court of Ohio
______________________________________________________________________________
APPENDIX A TO WRIT OF CERTIORARI
State v. Jalowiec, 159 N.E.3d 1157 (Table) (Ohio 2020)
(Ohio Supreme Court Declines Jurisdiction)
______________________________________________________________________________

Appendix, p. A- 1

ﬁlhe

ﬁupreme (1Imxrt of Gﬁhin

’

L

~F
DEC 29

57]
2‘

2020

CLE.‘??( OF COURT
SUPREME COURT OF 01110

State

of Ohio

Case No. 2020-1213

ENTRY

v.

Stanley Jalowiec

Upon consideration of the jurisdictional memoranda ﬁled in this case, the court

declines to acceptjurisdiction of the appeal pursuant to S.Ct.Prac.R.
7.08(B)(4).

(Lorain County Court of Appeals; No.

19CA011548)

Maureen O’Connor
Chief J ustiee

The Ofﬁcial Case Announcement can be found

at http://www.snpremecourt.ohio.gov/ROD/docs/

Appendix, p. A- 2

No. _______________
IN THE SUPREME COURT OF THE UNITED STATES
______________________________
STANLEY JALOWIEC,
Petitioner,
v.
STATE OF OHIO,
Respondent.
______________________________
On Petition for Writ of Certiorari
To the Supreme Court of Ohio
______________________________________________________________________________
APPENDIX B TO WRIT OF CERTIORARI
State v. Jalowiec, 9th Dist. Lorain 19CA011548,
2020-Ohio-4177, 2020 WL 4933561
(Intermediate Appellate Court Denies Relief)
______________________________________________________________________________

Appendix, p. A- 3

STATE OF OHIO
COUNTY OF LORAIN
STATE OF OHIO
Appellee
Sl~t·-r t

v.
STANLEY JALOWIEC
Appellant

r:;qJ\'.~"f'~~!;(~l"·

:-·-·----~.c;cc; ··c.·APJlEALJ<'RQM~'[
ENTERED IN THE
COURT OF COMMON PLEAS
COUNTY OF LORAIN, OHIO
CASE No.
95CR046840

DECISION AND JOURNAL ENTRY
Dated: August 24, 2020

SCHAFER, Judge.

{,1}

Defendant-Appellant, Stanley Jalowiec, appeals 1he judgment entry of 1he Lorain

County Court of Common Pleas denying his motion for a new mitigation trial. In light of the
following, 1his Court affirms.

I.
(,2}

In 1996, Jalowiec was convicted of aggravated murder and sentenced to death. We

previously summarized the lengthy and complex history of this case in State v. Jalowiec, 9th Dist.
Lorain No. l 7CA01l166, 2019-0hio-2059, 12-3:
[T]he facts [underlying 1his case] have been previously set out in State v. Jalowiec,
91h Dist. Lorain No. 14CA010548, 2015-0hio-5042, 17-18 and State v. Jalowiec,
91 Ohio St.3d 220, 220-224 (2001). The Supreme Court of Ohio affirmed
Jalowiec's conviction and sentence of death. Jalowiec, 91 Ohio St.3d at 240. The
appellate history also includes: State v. Jalowiec, 91h Dist. Lorain No.
96CA006445, 1998 WL 178554 (Apr. 15, 1998) [hereinafter "Jalowiec Direct
Appeal"] (direct appeal; affirming conviction); State v. Jalowiec, 91h Dist. Lorain
Nos. 01CA007844, 01CA007847, 2002 WL 358637 (Mar. 6, 2002) (appeal of
dismissal of motion for postconviction relief and three subsequent amended
motions for postconviction relief), appeal not accepted, 96 Ohio St.3d 1439, 2002.---------·---~--i

Journal_l}~~Page_~
i.------·

Appendix, p. A- 4

.I

2
Ohio-3344; Jalowiec v. Bradshaw, N.D.Ohio No. 1:03 CV 0645, 2008 WL 312655
(Jan. 31, 2008) (denial of petition for writ of habeas corpus); Jalowiec v. Bradshaw,
657 F.3d 293. (6th Cir.2011) (affirming denial of writ of habeas corpus); Jalowiec,
2015-0hio-5042 (affirming denial of motion for new trial), appeal not accepted,
149 Ohio Sl3d 1405, 2017-0hio-2822.
In January 2017, Jalowiec filed a motion for leave to file a motion for a new
mitigation trial pursuant to Crim.R. 33 and Hurst v. Florida, 136 S.Ct. 616 (2016).
Attached to the motion was Jalowiec' s proposed motion for a new mitigation trial.
The State responded in opposition. The trial court ultimately denied the motion for
leave to file the motion for a new mitigation trial.

{'1[3}

In his most recent prior appeal to this Court, Jalowiec argued that the trial court

erred when it denied his motion for leave to file a motion for a new trial. This Court determined
that the trial court had not ruled on Jalowiec's motion for leave. Instead, the trial court partially
considered the merits of the motion for a new trial itself by denying the motion with respect to
~alowiec's

argument that Ohio's death penalty sentencing scheme is unconstitutional pursuant to

Hurst, but disregarding Jalowiec's alternative argument that Ohio's death penalty statute was
unconstitutional as applied in this case.
{'1[4}

Upon remand, the trial court granted Jalowiec's motion for leave to file a motion

for a new trial. Considering the merits of the motion, the trial court rejected Jalowiec's argument

,.

that Ohio's death-penalty scheme is unconstitutional in light of Hurst. The trial court also rejected
Jalowiec's argument that Hurst provided a basis for asserting that Ohio's scheme is
unconstitutional as applied in his case, and ruled that the argument was barred by the doctrine of
res judicata.
{'1[5}

Jalowiec appealed the trial court's denial of his motion for a new trial and raised

two assig1m1ents of error for our review. To facilitate our analysis, we consider his assignments
of error in reverse sequence.

Appendix, p. A- 5

3

II.
Assignment of Error II
The trial court erred by denying Jalowiec's motion for a new mitigation trial
because Ohio's death penalty scheme is unconstitutional based on Hurst,

{,6}

In his second assignment of error, Jalowiec argues that the trial court erred when it

denied his motion for a new mitigation trial. Citing to the United States Supreme Court's decision
in Hurst, 136 S.Ct. at 616, Jalowiec contends that he was sentenced to death under a statutory
scheme that violates the Sixth and Fourteenth Amendments of the United States Constitution.

'
Although
Jalowiec raised this issue to the trial court in a motion for a new trial pursuant to Crim.R.
33(1), (4), and (5), his argument on appeal focuses only on his claim that Hurst invalidates Ohio's
capital sentencing scheme.

{,7}

Crim.R. 33 permits a defendant to move for a new trial when his substantial rights

have been materially affected. The rule enumerates several grounds upon which a defendant may
seek a new trial including, in pertinent part:
(1) Irregularity in the proceedings, or in any order or ruling of the court, or abuse

'

of discretion by the court, because of which the defendant was prevented from
having a fair trial;

***
( 4) That the verdict is not sustained by sufficient evidence or is contrary to law. If
the evidence shows the defendant is not guilty of the degree of crime for which he
was convicted, but guilty of a lesser degree thereof, or of a lesser crime included
tl1erein, the court may modify fue verdict or finding accordingly, without granting
or ordering a new trial, and shall pass sentence on such verdict or fmding as
modified;
(5) Error oflaw occurring at the trial[.]
Crim.R. 33(A). Generally, a trial court's decision to grant or deny the underlying motion for a
new trial is reviewed for an abuse of discretion.

State v. Gilliam, 9th Dist. Lorain No.

Appendix, p. A- 6

4
14CA010558, 2014-0hio-5476, ii 8, citing State v. Jones, 9th Dist. Summit No. 26568, 2013-0hio2986,

ii 8. An abuse of discretion implies the trial court's decision is unreasonable,

arbitrary, or

unconscionable. Blakemore v. Blakemore, 5 Ohio St.3d 217, 219 (1983).
{~8}

As the basis for his motion for a new mitigation trial, Jalowiec cites to the United

States Supreme Court's decision in Hurst, holding that "[t]he Sixth Amendment requires a jury,
not a judge, to find each fact necessary to impose a sentence of death." Hurst, 136 S.Ct. at 619.
In addressing the merits of Jalowiec's motion, the trial court considered the decisions of several
Ohio courts holding that Hurst does not apply to Ohio's capital sentencing scheme, and concluded

'
that the Supreme Court of Ohio's decision to that effect in State v. Belton, 149 Ohio St.3d 165,
20 l 6-0hio-1581, is controlling. The trial court rejected Jalowiec' s argument because Ohio's death
penalty scheme differs from the Florida death penalty statute held unconstitutional in Hurst, and
because Ohio's death penalty scheme "is not tmconstitutional based upon the United States
Supreme Court's ruling in Hurst." (Emphasis original.) In denying Jalowiec's motion for a new
trial on these grounds, the trial court also noted that every Ohio court having "addressed a Hurst
challenge to the constitutionality of Ohio's death penalty statutes has found the argument

'

unpersuasive."
{~9}

In his merit brief, Jalowiec does not argue that the trial court abused its discretion

in any manner specifically related to Crim.R. 33. Instead he contends that the trial court, in
addition to the Supreme Court of Ohio, erred in interpreting Hurst. "When the question presented
on appeal is strictly one of law, this Court applies a de novo standard of review." State v. Prade,
9th Dist. Summit No. 28193, 2018-0hio-3551,

ii 7.

"A de novo review requires an independent

review of the trial court's decision without any deference to [its] determination." State v. Consilio,
9th Dist. Summit No. 22761, 2006-0hio-649, 14.

Appendix, p. A- 7

5
{1[10} In Hurst, the United States Supreme Court considered the constitutionality of
Florida's capital sentencing statute and invalidated the statute because it limited the jury's role in
sentencing to an advisory recommendation and did "not require the jury to make the critical
findings necessary to impose the death penalty." Hurst, 136 S.Ct. at 622. The Supreme Court of
Ohio has twice reviewed the Hurst decision as it relates to Ohio's capital sentencing scheme. On
both occasions the Court determined that the basis upon which the Hurst Court found Florida's
statute to be unconstitutional is not present in Ohio's statute. Belton, 2016-0hio-1581; State v.

Mason, 153 Ohio St.3d 476, 2018-0hio-1462.
'
{'1[11} Rejecting a challenge to the constitutionality of Ohio's capital sentencing scheme,
the Supreme Court of Ohio observed that, unlike the Florida statute at issue in Hurst, "[i]n Ohio,
a.,capital case does not proceed to the sentencing phase until after the fact-finder has found a
defendant guilty of one or more aggravating circumstances." Belton at

if 59.

An Ohio "judge

cannot impose a sentence of death unless the jury has entered a unanimous verdict for a death
sentence." Id. The Court again considered the constitutionality of Ohio's death-penalty scheme
under the holding of Hurst in Mason. In Mason, the Court found that, although "Ohio trial judges

"

may weigh aggravating circumstances against mitigating factors and impose a death sentenceL]"
they may do so "only after the jury itself has made the critical findings and recommended that
sentence." Mason at if 42. Accordingly, Mason held Ohio's statute does not violate the right to a
trial by jury as guaranteed by the Sixth Amendment to the United States Constitution. Id.

{'1[12) Jalowiec has not demonstrated error in the trial court's interpretation of the holding
in Hurst nor in its application of the Supreme Court of Ohio's holdings in Belton and Mason as
binding authority. Moreover, this Court is bound by the decisions in Belton and Mason that
expressly reject the argument Jalowiec asks ns to accept in support of his claim that he is entitled

Appendix, p. A- 8

6
to a new mitigation trial. Consequently, Jalowiec's argument regarding the applicability of Hurst
to invalidate Ohio's death penalty fails as a matter oflaw. Thus, we conclude Hurst has no bearing
on the mitigation phase of Jalowiec's trial, and the trial court did not err by denying his motion for
a new trial.

{,13} Jalowiec's second assignment of error is overruled.

Assignment of Error I
The trial court erred when it denied Jalowiec's motion for a new mitigation
trial because Jalowiec proved Ohio's death penalty statute is unconstitutional
as applied to his case. [ ].
{,14} In his first assigrunent of error, Jalowiec asserts that, after Hurst, it is
unconstitutional to tell a jury that its sentencing verdict is only a recommendation. Jalowiec
c0ntends "Hurst teaches that advisory jury verdicts are insufficient to support a death sentence."

'

..

"

{,15} Generally, we review a trial court's denial of a motion for a new trial for an abuse
of discretion. Gilliam, 2014-0hio-5476at1 8, citing Jones, 2013-0hio-2986at1 8. However,
Jalowiec contends that the trial court erred in its interpretation of law by finding that Hurst did not

,.apply to the circumstances of his case and further erred in concluding that the argument he raised
in his Crim.R. 33 motion for a new trial was barred by res judicata. Accordingly, this Court will
apply a de novo standard ofreview to the issues Jalowiec raises strictly as a question oflaw. Prade,
2018-0hio-3551 at 17.
{1[16} This is not the first time Jalowiec has argued to this Court thatthe trial court erred
by telling the jury that its sentencing decision was only a recommendation. In his direct appeal,
Jalowiec argued in his twelfth assignment of error "that the trial court erred by referring to the
jury's decision in the penalty phase of the trial as a 'recommendation' during voir dire of the
potential jurors, the guilt phase of the trial, the penalty phase, and in the court's instructions to the

Appendix, p. A- 9

7
jury during the penalty phase." Jalowiec Direct Appeal, 1998 WL 178554 at *13. This Court
noted that, "(i]n its instructions to the jury, the trial court told the jury:"

* * * It is going to be your responsibility at this point to decide which sentence to
recommend to the Court regarding the alternative charges of Aggravated Murder
with the specification.
I have used the word recommend many times and the attorneys have used it, and I
want to make sure that you understand that you are not to construe that word to
diminish your responsibility in this matter. It is an awesome task, and the fact thadt
[sic] the word recommend is used should not be considered by you to lessen your
task.

Id. This CoUlt recognized that Jalowiec failed to object to the trial court's penalty phase jury
'
instructions below and had waived all but plain error with regard to the issue. Id. at *11.
Consequently, this Court overruled Jalowiec's assignment of error, holding that "'(t]he term
·~recommendation"

accurately reflects Ohio law and does not diminish the jury's sense of

responsibility. There is no error, plain or otherwise."' Id. at *13, quoting State v. Moore, 81 Ohio
St.3d 22, 37 (1998).
{~17}

Jalowiec raised the argument again in his most recent motion for a new trial under

the pretense of the holding in Hurst having some bearing on the issue. Initially, in its order

'

overruling Jalowiec's motion for a new trial, the trial court found that Jalowiec's argument was
. barred by the doctrine ofres judicata because his argument had been overruled in his direct appeal.
Next, the trial court concluded Jalowiec's argument lacked merit because "there is nothing in the

Hurst

* * * decision[]

that suggest(s] that it is constitutionally problematic to inform potential

jurors that the decision to impose death is a 'recommendation' to the court." The trial court stated
that the Supreme Court of Ohio "has repeatedly held that references by the court or attorneys to
death penalty "recommendations" is not constitutionally cognizable[,)" and concluded that the law
on this point is the same today as it was at the time Jalowiec was tried and convicted.

Appendix, p. A- 10

8
{~18}

In his merit brief, Jalowiec contends the "unique circumstances of [his] case make

his death sentence unconstitutional after Hurst." As we indicated in the previous assignment of
error, the Supreme Court of Ohio has already determined that Hurst does not apply to Ohio's
capital sentencing scheme. Belton, 2016-0hio-1581 at 158-59; Mason, 2018-0hio-1462at11921. Still, in support ofhis argument, Jalowiec cites to the holding in Hurst: "The Sixth Amendment
requires a jury, not a judge, to find each fact necessary to impose a sentence of death. A jury's
mere recommendation is not enough."

Hurst, 136 S.Ct. at 619.

Focusing on the "mere

recommendation" phrase, Jalowiec argues the holding of Hurst is implicated by the fact that the

'

.

jury in his case "[f]rom voir dire to jury deliberations" was repeatedly told that their sentencing
verdict was a recommendation, and the trial judge would "ultimately decide what sentence to
iJ1lpose."
{~19}

As it pertains to the process in Ohio, and the circumstances of his particular case,

Jalowiec misconstrues the statement in Hurst that a "jury's mere recommendation is not enough[,]"

Hurst at 619, and asks this Court to consider it out of context. In Hurst, the United States Supreme
Court deemed the Florida statute under review unconstitutional because it "required the jury to

'

render an 'advisory sentence' after hearing the evidence in a sentencing-phase proceeding[.]"

Mason at 1 31. Specifically, the United States Supreme Court held that the Florida scheme violated
"violated the Sixth Amendment because it did not require the jury to find that [a defendant] was
guilty of committing a specific aggravating circumstance." Id. However, Hurst did not create a
requirement under the Sixth Amendment that the jury alone must decide whether a sentence of
death will be imposed.
{~20}

Hurst did not touch on the issue Jalowiec has raised here: whether it is

constitutionally problematic to inform a jury that their decision regarding sentencing is a

Appendix, p. A- 11

9
recommendation. In contrast to the Florida statute, Ohio "requires a jury to find the defendant
guilty beyond a reasonable doubt of at least one aggravating circumstance, R.C. 2929.03(B),
before the matter proceeds to the penalty phase, when the jury can recommend a death sentence."

Id. at 132. Hurst simply made clear that the Sixth Amendment requires that a jury must make the
specific and critical finding that the defendant is eligible for the death penalty before the jury can

recommend that the defendant be sentenced to death. See id. at 1 32. After the jury makes its
sentencing recommendation, Ohio judges are then required to find, independent of the jury's
recommendation, whether a death sentence should be imposed. This step operates as a "safeguard"

'
because a judge canoot find additional aggravating circumstances or increase the sentence beyond
the jury's recommendation. Id. at 1 40. The authority of Ohio trial judges to weigh aggravating
circumstances with mitigating factors is derived "wholly from the jury's verdict" and, therefore,
Ohio's process is appropriate within the framework of the Sixth Amendment. Mason at , 42.
Nothing in our reading of Hurst supports Jalowiec's argument that it declared it unconstitutional
to inform the jury that their sentencing decision was a recommendation. Thus, we conclude, Hurst
had no bearing on Jalowiec's "as-applied" argument in his motion for a new trial.

'

{~21} Because

Hurst breathes no new life into the issue of the constitutionality of

informing an Ohio jury that its decision as to whether a defendant should be sentenced to death is
a recommendation, Jalowiec has not identified a meritorious basis to revisit this issue. Absent

Hurst-the sole alleged basis for Jalowiec's motion for new trial-the underlying issue was
already decided on direct appeal. Jalowiec Direct Appeal, at *13. Therefore, we conclude that
the trial court did not abuse its discretion by concluding that Hurst did not apply to Jalowiec' s asapplied argument, nor did the court err by concluding that the argument was barred by res judicata.
{~22}

Jalowiec 's first assignment of error is overruled.

Appendix, p. A- 12

10
III.
{~23}

Jalowiec's first and second assigmnents of error are overruled. The judgment of

the Lorain County Court of Common Pleas is affirmed.
Judgment affirmed.

There were reasonable grounds for this appeal.
We order that a special mandate issue out of this Court, directing the Court of Common

'
Pleas,
County of Lorain, State of Ohio, to carry this judgment into execution. A certified copy of
this journal entry shall constitute the mandate, pursuant to App.R. 27.
Immediately upon the filing hereof, this document shall constitute the journal entry of
'judgment, and it shall be file stamped by the Clerk of the Court of Appeals at which time the period
for review shall begin to run. App.R. 22(C). The Clerk of the Court of Appeals is instructed to
mail a notice of entry of this judgment to the parties and to make a notation of the mailing in the
docket, pursuant to App.R. 30.

,.
Costs taxed to Appellant.

CARR, P. J.
HENSAL, J.
CONCUR.

Appendix, p. A- 13

11
APPEARANCES:
RICHARD A. CLINE, Senior Assistant Public Defender, and MICHELLE UMANA, Assistant
Public Defender, for Appellant,
DENNIS P. WILL, Prosecuting Attorney, and LINDSEY C. POPROCKI, Assistant Prosecuting
Attorney, for Appellee.

Appendix, p. A- 14

No. _______________
IN THE SUPREME COURT OF THE UNITED STATES
______________________________
STANLEY JALOWIEC,
Petitioner,
v.
STATE OF OHIO,
Respondent.
______________________________
On Petition for Writ of Certiorari
To the Supreme Court of Ohio
______________________________________________________________________________
APPENDIX C TO WRIT OF CERTIORARI
State v. Jalowiec, Lorain County Common Pleas Court
Case No. 95CR046840, July 26, 2019 Judgment Entry
(Trial Court Denies Relief After Remand)
______________________________________________________________________________

Appendix, p. A- 15

1··

I

LORAIN COUNTY COURT OF COMMON PLEAS
LORAIN COUNTY, OHIO
JOURNAL ENTRY
Hon. D. Chris Cook, Judge
Date

July 26, 2019

Case No.

95CR046840

STATE OF OHIO

A. Cillo, L. Dezort, M. Kern

Plaintiff

Plaintiff's Attorney

vs
STANLEY JALOWIEC

Richard Cline

Defendant

Defendant's Attorney

This matter is before the Court on remand from the Ninth District Court of Appeals
(Case No. 17CA011166), in an opinion filed May 28, 2019 and Defendant/Petitioner,
Stanley Jalowiec's ("Jalowjec"), Motion For Telephone Status Conference, filed July 22,
2019.
Given this Court's disposition of the remand order infra, the Motion For Telephone
Status Conference is DENIED as moot.
Jalowiec's Motion For Leave To File A Motion For A New Mitigation Trial is well-taken
and hereby GRANTED.
Jalowiec's Motion For A New Mitigation Trial is not well-taken and hereby DENIED.
See Judgment Entry.
IT IS SO ORDERED. No Record.

cc:

A. Cillo, Asst.. Cty. Pros.
L. Dezort, Asst. Cty. Pros.
M. Kern, Asst. Cty. Pros.
R. Cline, Esq.

Appendix, p. A- 16

c:.~: · I\;_

I

.

LORAIN COUNTY COURT OF COMMON PLEAS
LORAIN COUNTY, OHIO
JUDGMENT ENTRY
Hon. D. Chris Cook, Judge
Case No.

July 26, 2019

Date

95CR046840

STATE OF OHIO

A. Cillo, L. Dezort, M. Kern

Plaintiff

Plaintiffs Attorney

vs
STANLEY JALOWIEC

Richard Cline

Defendant

Defendant's Attorney

I. INTRODUCTION
This matter is before the Court on remand from the Ninth District Court of Appeals
(Case No. 17CA011166), in an opinion filed May 28, 2019 and Defendant/Petitioner,
Stanley Jalowiec's ("Jalowiec"), Motion For Telephone Status Conference, filed July 22,
2019.
II. PRELIMINARY STATEMENT
The gravamen of the remand. order is that this Court" ... explicitly disregarded the
requirements of Crim. R. 33(8) and instead, partially considered the merits of Jalowiec's
attached motion for a new mitigation trial." 1 .
The relevant portion of Crim. R. 33(8) reads as follows,
Application for a new trial shall be made by motion which ... shall be filed within
fourteen days after the verdict was rendered ... unless it is made to appear by
clear and convincing proof that the defendant was unavoidably prevented from
filing his motion for a new trial, in which case the motion shall be filed within
seven days from the order of the court finding that the defendant was
unavoidably prevented from filing such motion within the time provided herein.
The Ninth District's remand order is accurate to the extent that this Court did not
explicitly determine whether leave should be granted or denied and instead,

1

State v. Jalowiec, 9th Dist., Lorain No. 17CA011166, 2019-0hio-2059 (5/28/2019), at ~7.

2

Appendix, p. A- 17

addressed the merits of the motion for a new trial based on the Ohio Supreme Court's
decision in State v. Belton, 149 Ohio St.3d 165, 2016-0hio-1591, which this Court found
dispositive.
Of course, it goes without saying that in reaching the merits of the motion for a new trial,
this Court implicitly determined that leave was appropriate and was grant~d. 2
Nevertheless, this Court should have explicitly addressed the predicate question and
will do so now.
Ill. STATEMENT OF PERTINENT FACTS
The pertinent facts relevant to Jalowiec's motion for leave are not in dispute.
On April 11, 1996, this Court sentenced Jalowiec to death for his involvement in the
murder of Ronald Lally. Since his conviction, Jalowiec has filed numerous appeals in
both state and federal courts, petitions for post conviction relief, and petitions for habeas
corpus - all which have been unsuccessful.
On January 12, 2016, the United States Supreme Court released its decision in the
matter, Hurst v. Florida, 3 which invalided the State of Florida's death penalty scheme
finding it unconstitutional.
On January 12, 2017, exactly one-year later, Jalowiec filed his motion for leave to file a
motion for a new mitigation trial.
The State filed a brief in opposition arguing, among other things, that the motion for
leave was untimely. Jalowiec replied, an oral hearing was had, and this Court issued its
decision on June 7, 2017.

IV. ANALYSIS
THIS COURT FINDS, BY CLEAR AND CONVINCING EVIDENCE, THAT
JALOWIEC WAS UNAVOIDABLY PREVENTED FROM FILING HIS MOTION
FOR A NEW TRIAL WITHIN THE MANDATES OF CRIM. R. 33

2

This is particularly so in light of the Ninth District's decision in State v. Jones, 9th Dist., Summit No. 28547,
2019-0hio-1870, a case almost identicafto this one where remand was not ordered.
3
Citations omitted.

3

Appendix, p. A- 18

As noted by the Ninth District, the State advances two arguments of untimeliness; first,
that the motion is untimely since it was filed one-year after Hurst was decided; and two,
that Jalowiec could have challenged the constitutionality of Ohio's sentencing laws prior
to the Hurst decision by using existing case law as support since Hurst did not present
4
new law.
None of these arguments are convincing.
Regarding the timeliness of the motion for leave, it does not appear that either the
Supreme Court or Ninth District have addressed the issue on point. The State directs
this Court to the matter of State v. Griffith, 11th Dist., Trumbull No. 2005-T-0038, 20060hio-2935 that stands for the proposition that" ... case law has adopted a
reasonableness standard ... "and that" ... a trial court may require a party to file his .
Crim. R. 33 motion within a reasonable time ... " Griffith,ld.
The question then becomes, is a motion for a new trial based upon the holding of a
Supreme Court case filed one-year after the case is decided unreasonable? To answer
this question, Jalowiec relies upon a Tenth District Court of Appeals case, State v.
Burke, 1oth Dist. Franklin No. 03AP-1241, 2005-0hio-891, where that court determined
. that a 17-month delay in filing for a new trial was not unreasonable. 5 Id. at ~12.
I

On the other hand, there are cases that hold that a one-year delay in filing a Hurst
motion for leave is excessive: State v. Hale, 8th Dist., Cuyahoga No. 107782, 20190hio-1890, accord, State v. Bryan, 8th Dist., Cuyahoga No. 105774, 2018-0hio-1190;
State v. Mundt, 7th Dist., Noble No. 17 NO 0446, 2017-0hio-7771.
Given the conflicting authority and no direct guidance from the Ninth District, this Court
finds that the answer depends on the nature of the case and the reasons for the delay.
Here, Jalowiec cites no reasons for the delay in his motion or reply brief but at oral
argument explained that Hurst represented "... a sea change in the understanding of
jury's roles in sentencing." 6 Moreover, Jalowiec urged that he was awaiting a decision
from the Ohio Supreme Court in the matter of State v. Kirkland, 140 Ohio St.3d 73,
2014-0hio-1966, which would significantly influence him on how to proceed herein. 7 ·

4

5
6
7

In addition, the State also argues res judicata.
Like this case, Burke is a death penalty case.
Transcript of proceedings from ontl hearing had 5/18/2017, Page 8, Lines 14-15.
Transcript of proceedings from oral hearing had 5/18/2017, Pages 9-11.

4

Appendix, p. A- 19

Both of these arguments have merit.
More importantly, however, is the fact that this is a death penalty case. Everything
moves more slowly in a death penalty case and the stakes, obviously, are high. Given
the complexity of the Hurst decision and its possible impact on Ohio's death penalty
scheme and the fact that Jalowiec wanted to know how Kirkland was decided, all
mitigate the delay in filing for a new trial.
The State also urges res judicata in that Jalowiec has already argued "... various
claims related to the penalty phase of his trial during his direct appeal ... "and that
Jalowiec "... could have raised these same issues in a motion for a new trial within
the timeframe allotted by Crim. R. 33(B) since he raised them in his direct appeal."
Neither of these arguments are compelling.
Jalowiec seeks leave to file a motion for a new mitigation trial based upon a United
States Supreme Court decision that struck down the State of Florida's death penalty
statute - a statute eerily similar to Ohio's. 8 Jalowiec could not have possibly used Hurst
to bolster his previous arguments as it was not in existence until January, 2016.
Accordingly, this Court finds, as a matter of law, that the one-year delay between the
release of the Hurst decision and Jalowiec's filing of his motion for leave is not
unreasonable and as such, leave must be granted.
Given that this Court has granted Jalowiec leave to file his motion for a new mitigation
trial, the Court will now address the motion on the merits.
FOR THE REASONS STATED IN THIS COURT'S ORDER AND JUDGMENT
ENTRY FILED JUNE 7, 2017, WHICH ORDER IS HEREBY INCORPORATED
HEREIN, AND THE SUPPLEMENTAL ANALYSIS AND AUTHORITY INFRA,
JALOWIEC'S MOTION FOR A NEW MITIGATION TRIAL LACKS MERIT AND
IS DENIED
Given that this Court has incorporated its previous analysis regarding the application of
Belton to this case, it will not be reiterated herein. Suffice to say that Belton is
controlling, Ohio's death penalty scheme is different from Florida's, and Ohio's death
penalty statute, while perhaps immoral, highly impractical, incredibly expensive,
arguably disproportionate in application to minorities and the poor9 , and rarely
8

See: State v. Rogers, 28 Ohio St.3d 427, 430 (1986).
.
Since July 14, 2009 (the last 10 years), Ohio has executed 27 men. 10, or 37%, were minorities yet minorities
make up approximately 15% of Ohio's population.
9

5

Appendix, p. A- 20

imposed, 10 it is not unconstitutional based upon the United States Supreme Court's
ruling in Hurst.
Moreover, multiple courts including the federal courts, the Ohio Supreme Court,
numerous courts of appeal in Ohio, and the Ninth District Court of Appeals have all
opined on this issue and have all rejected Hurst challenges to Ohio's death penalty
statutes.·
THE FEDERAL COURTS
In the matter of Dunlap v. Paskett, Warden, U.S. Dist. Ct., S.D. Ohio, Eastern Division,
Case No. 1:99-cv-559, 2019 WL 1274862, 3/20/2019, the District Court held,
"Petitioner's Hurst-based motions are DENIED. The Court analyzed Dunlap's Hurst
claims and in reliance on Belton and its progeny determined that " ... Petitioner's
proposed Hurst claim is plainly without merit." Id. at *6.
THE OHIO SUPREME COURT
In addition to Belton, the Ohio Supreme Court decided State v. Mason, 153 Ohio St.3d
476, 2018-0hio-1462, which in reliance on Belton against a Hurst challenge held,
1. State death-penalty scheme did not violate Sixth Amendment;
2. Weighing process contained in death-penalty statutes did not constitute factfinding subject to Sixth Amendment right to jury trial;
3. Death-penalty scheme adequately afforded right to trial by jury during penalty
phase; and
4. Statutes governing role of trial judge in death-penalty scheme did not violate
Sixth Amendment right to jury trial.
And, in State ex rel. O'Malley v. Co/lier-Williams, 153 Ohio St.3d 553, 2018-0hio-3154,
the Ohio Supreme Court held relative to a Hurst challenge of the constitutionality of
Ohio's death penalty statute that "... we have already rejected this interpretation of
Hurst." Id. at ,-J20.
·
THE NINTH DISTRICT COURT OF APPEALS
The Ninth District has also addressed a Hurst challenge in a very recent, almost
identical case, to wit: State v. Jones, 9th Dist., Summit No. 28547, 2019-0hio-1870.

10

The last execution in Ohio was July 18, 2018 (more than one-year ago), when Robert Van Hook was executed for
the aggravated murder of David Self.

6
Appendix, p. A- 21

With great respect to the Ninth District, it is somewhat difficult for this Court to reconcile
the decision in Jones with the Ninth's decision in Jalowiec.
The trial court in Jones"' like this Court's original decision, failed to clearly enunciate the
basis upon which it denied Jones leave to file his motion for a new trial. In Jones, the
appellate court notes,
Nonetheless, the trial court did not clarify whether it denied the motion for leave
upon finding that Jones could not have been unavoidably delayed because the
basis for his proposed motion was meritless, or whether, as Jones contends, the
trial court disregarded Jones' unavoidable delay argument in support of his
motion for leave and instead considered the merits of his proposed motion for a
new trial. We determine, however, that remand for clarification is
unnecessary since in the case of the former, the trial court would not have
abused its discretion, and in the case of the latter, the trial court's error would be
harmless.
Id. at ,-J14. (Emphasis added.)

Ultimately, the trial court in Jones determined that based upon Belton and its progeny,
Jones' Hurst claim lacked merit thus his motion for a new trial should be denied. In its
review of the Jones decision, the Ninth District concluded,
Accordingly, assuming 11 that the court denied the motion for leave on the basis.
that Jones did not present a meritorious basis for claiming unavoidable delay, we
would not be able to say that the trial court abused its discretion. Likewise, if we
assume the trial court only considered the merits of his proposed motion,
we would also not be able to say that the trial court abused its discretion,
as that denial would be dispositive of the unavoidable delay issue.
Id. at ,-J16. (Emphasis added.)

Again, with great respect, this Court reached the identical conclusion as the trial court in
Jones did, to wit: because Jalowiec's motion for a new trial lacked merit due to Belton
and its progeny, whether or not the motion for leave was timely is irrelevant.
Regardless, the holding by the Ninth District in its Jones decision is highly instructive for
this case. Whether this Court were to grant leave to file the motion for a new mitigation
trial (which I have now done) or deny it is of no real consequence. Ultimately, Belton
11

With respect, it is unclear why this same "assumption" was not accorded to this Court in its original Jalowiec
decision.

7
Appendix, p. A- 22

and its progeny are dispositive and Jalowiec is not entitled to a new mitigation trial
based upon his Hurst argument.
SISTER AP PELLATE DISTRICTS
In addition to the compelling case law cited above, a number of the Ninth District's sister
appellate courts have also addressed Hurst challenges to Ohio's death penalty scheme
- all have reached the same result.
THE FIRST DISTRICT - HAMILTON COUNTY
In State v. Carter, 151 Dist., Hamilton No. C-170231, 2018-0hio-645, the First District,
relying on Belton held,
Post-Hurst, the Ohio Supreme Court recognized that, unlike the Florida statute,
under Ohio law "the determination of guilt of an aggravating circumstance
renders the defendant eligible for a capital sentence," and therefore "it is not
possible to make a factual finding during sentencing phase that will expose a
. defendant to greater punishment."
Id. at 1J8.
THE FOURTH DISTRICT - ROSS COUNTY
In State v. Landrum, 4th Dist., Ross No. 17CA3607, 2018-0hio-1280, the Fourth District,
relying on Belton (and other issues) held,
Ohio's capital-sentencing scheme is unlike the laws at issue in Ring and Hurst. In
Ohio, a capital case does not proceed to the sentencing phase until after the factfinder has found a defendant guilty of one or more aggravating
circumstances. See R.C. 2929;03(D); R.C. 2929.04(8) and (C); **337 State v.
Thompson, 141 Ohio St.3d 254, 2014-0hio-4751, 23 N.E.3d 1096, 1J 147.
Because the determination of guilt of an aggravating circumstance renders the
defendant eligible for a capital sentence, it is not possible to make a factual
finding during the sentencing phase that will expose a defendant to greater
punishment. Moreover, in Ohio, if a defendant is tried by a jury, then the judge
cannot impose a sentence of death unless the jury has entered a unanimous
verdict for a death sentence. R.C. 2929.03(0)(2).
Id. at 1J19.

8

Appendix, p. A- 23

THE EIGHTH DISTRICT - CUYAHOGA COUNTY
In State v. Hale, 8th Dist., Cuyahoga No. 107782, 2019-0hio-1890, the Eight District,
relying on Belton and State v. Bryan, 81h Dist. Cuyahoga No. 105774, 2018-0hio-1190,
held,
With regard to the substantive merit of the Hurst argument, we note that
in Bryan, this court rejected a Hurst challenge to Ohio's death penalty scheme
and stated:
Post-Hurst, the Ohio Supreme Court recognized that, unlike the Florida statute,
under Ohio law "the determination of guilt of an aggravating circumstance
renders the defendant eligible for a capital sentence," and therefore "it is not
possible to make a factual finding during sentencing phase that will expose a
defendant to greater punishment." State v. Belton [citation omitted.]

In other words, in Ohio a jury must first find a defendant guilty of an aggravating
factor before the death penalty becomes a possibility.
Bryan, at ~13.

THE TWELFTH DISTRICT - BUTLER COUNTY
In State v. Williams, 1ih Dist., Butler No. CA2017-07-105, 2018-0hio-1358, the Twelfth
District held,
Finally, every Ohio court of appeals that has addressed the effect of Hurst on
Ohio's capital sentencing scheme as it existed when the court sentenced
Williams has concluded that it is constitutional. State v. Mason, 3d Dist. Marion
No~ 9-16-34, 2016-0hio-8400, ~ 29, appeal accepted, 149 Ohio St.3d 1462,
2017-0hio-5699, 77 N.E.3d 987; State v. Jackson, 8th Dist. Cuyahoga No.
105530, 2018-0hio-276, ~ 16; State v. Carler, 1st Dist. Hamilton No. C-170231,
2018-0hio-645, ~ 4-8; see also State v. Mundt, 7th Dist. Noble No. 17 NO
0446, 2017-0hio-7771, ~ 9-10. Accordingly, this court overrules Williams' sole
assignment of error.
Id. at ~17.

To this Court's knowledge, every court in the State of Ohio, including the United States
District Court for the Southern District of Ohio - Eastern Division that has addressed a
Hurst challenge to the constitutionality of Ohio's death penalty statutes has found the
argument unpersuasive.

9

Appendix, p. A- 24

So do I.
JALOWIEC'S ALTERNATE ARGUMENT THAT OHIO'S CAPITAL
SENTENCING STATUTE IS UNCONSTITUTIONAL AS APPLIED TO THIS
CASE
The gravamen of Jalowiec's argument that the facts of his case worsen the implications
of Hurst turns on the premise that the court and attorneys at his trial emphasized that
the role of the jury was" ... only to recommend punishment, nothing more." 12
This argument also lacks merit.
First, this issue is barred by the doctrine of res judicata.
As far back as Jalowiec's direct appeal in1998, he raised this very issue in his twelfth
assignment of error. The Ninth District made short-shrift of this argument then and I do
so now.
The Ninth held,
Twelfth Assignment of Error
The argument to the jury that their decision is a mere recommendation is
unacceptable as it diminishes the responsibility of the jury.
In his twelfth assignment of error, Jalowiec contends that the trial court erred by
referring to the jury's decision in the penalty phase of the trial as a
"recommendation" during voir dire of the potential jurors, the guilt phase of the
trial, the penalty phase, and in the court's instructions to the jury during the
penalty phase. We disagree. "[T]he term 'recommendation' accurately reflects
Ohio law and does not diminish the jury's sense of responsibility. There is no
error, plain or otherwise." State v. Moore (1998), 81 Ohio St.3d 22, 37, 689
N.E.2d 1. (Citation omitted.) Jalowiec's twelfth assignment of error is overruled.

State v. Ja/owiec, 9th Dist., Lorain No. 96CA006445, 1998 WL 178554, 4/15/1998.
Without reviewing all of the numerous appeals, petitions, and motions Jalowiec has filed
over the years, it would come as no surprise if he unsuccessfully raised this issue
subsequent to his initial appeal.

12

Jalowiec's motion for new trial, Page 14, iJF.

10

Appendix, p. A- 25

Regardless, there is nothing in the Hurst or Belton decisions that suggest that it is
constitutionally problematic to inform potential jurors that the decision to impose death is
a "recommendation" to the court. This was the law at the time Jalowiec was tried and
convicted and remains the law today.
Moreover, the Ohio Supreme Court has repeatedly held that references by the court or
attorneys to death penalty "recommendations" is not constitutionally cognizable.
For instance, in State v. Stallings, 89 Ohio St.3d 280,
Court noted,

2000~0hio-164,

the Supreme

In proposition of law VIII, defendant complains that the court erred by referring to
the jury's penalty verdict as a recommendation. However, use of that term, while
not preferred, accurately reflects Ohio law, does not diminish the jury's overall
sense of responsibility, and does not constitute reversible error. (Citations
omitted.)
Id. at 1r35.

Further, the Ohio Supreme Court more recently addressed this exact issue in the matter
of State v. Mason, 153 Ohio St.3d 476, 2018-0hio-1462, a case entirely on point (on
this issue),
While we uphold our conclusion in Belton that weighing is not a fact-finding
process subject to the Sixth Amendment, we further conclude that even if the
weighing process were to involve fact-finding under the Sixth Amendment, Ohio
adequately affords the right to trial by jury during the penalty phase. Mason
contends that it does not, because the process permits a jury only
to recommend a death sentence. See R.C. 2929.03(0)(2). Here, he emphasizes
the statement in Hurst that "[a] jury's mere recommendation is not enough," U.S.--, 136 S.Ct._at 619,.193 L.Ed.2d 504. But he fails to appreciate the
material difference between the process by which an Ohio jury reaches its
death recommendation and the Florida process at issue in Hurst.
Mason, at ~30.

And,
Ohio law, in contrast, requires a jury to find the defendant guilty beyond a
reasonable doubt of at least one aggravating circumstance, R.C. 2929.03(8),
before the matter proceeds to the penalty phase, when the jury an recommend a

11

Appendix, p. A- 26

death sentence. Ohio's scheme differs from Florida's because Ohio requires the
jury to make this specific and critical finding.

Id. at 1f32.
Because there is nothing unique or novel about the manner in which Jalowiec was tried
and convicted, and since his arguments herein have been repeatedly and thoroughly
addressed, he suffered no constitutional infirmity at his sentencing and he is not entitled
to a new mitigation trial.

V. CONCLUSION
This Court finds as a matter of law that Jalowiec's motion for leave to file a motion for a
new mitigation trial is timely, that he has posited by clear and convincing evidence that
he was unavoidably prevented from filing his motion for a new trial within the
parameters of Crim. R. 33, and that the motion for leave is well-taken and hereby
GRANTED.
As for the motion for a new trial, this Court finds that based upon Belton and its
progeny, Jalowiec's Hurst argument lacks merit.
Finally, Jalowiec's alternative motion is res judicata and as there is nothing in the Hurst
or Belton decisions that suggest that it is constitutionally problematic to inform potential
jurors that the decision to impose death is a "recommendation," the motion for a new
mitigation trial lacks merit on that basis as well.
Accordingly, Jalowiec's motion for a new mitigation trial is not well-taken and hereby
DENIED.
IT IS SO ORDERED. No Record.

VOL

PAGE - - -

12
Appendix, p. A- 27

No. _______________
IN THE SUPREME COURT OF THE UNITED STATES
______________________________
STANLEY JALOWIEC,
Petitioner,
v.
STATE OF OHIO,
Respondent.
______________________________
On Petition for Writ of Certiorari
To the Supreme Court of Ohio
______________________________________________________________________________
APPENDIX D TO WRIT OF CERTIORARI
State v. Jalowiec, 9th Dist. Lorain 17 CA011166,
2019-Ohio-2059, 2019 WL 22628676
(Intermediate Court of Appeals Remands to Consider As Applied Challenge)
______________________________________________________________________________

Appendix, p. A- 28

STATE OF OHIO

· ·-·IN THE COURTOFiAPPEALS
\NINTHJUDICIAL DISTRICT

COUNTY OF LORAIN

FILED
tOR/\lH COUNTY

STATE OF OHIO

C.A.No.

17CA©ll 166
~

Z.019 JUN 3 PH 12: 44 '

Appellee
v.

I
I
COURT OF OMHON PLEAS
I
TOM RL~'EAL iROM JUrlGMENT
i
~NTEREDTN THE '.
COMMchN
PLEAS
-··
·-·----·--·- -·-- --- ________,
...-....-.-..-·---·- -------·-· -COUNTY OF LORAIN, OHIO
,

STANLEY JALOWIEC

I

,

c •••

,,,: _;\, CObRTOF
--------~

CASE No.

Appellant

----~---' ~--'-~=···~

95CR046840

DECISION AND JOURNAL ENTRY
Dated: May 28, 2019

SCHAFER, Presiding Judge.
{~l}

Defendant-Appellant, Stanley Jalowiec appeals the judgment entry of the Lorain

County Court of Common Pleas denying his motion for leave to file a motion for a new
mitigation trial.
I.
{~2}

Jalowiec was sentenced to death in 1996 for the aggravated murder of R.L. This

case has a long and complicated procedural history, the facts of which have been previously set
out in State v. Jalowiec, 9th Dist. Lorain No. 14CA010548, 2015-0hio-5042,

ii 7-18 and State v.

Jalowiec, 91 Ohio St.3d 220, 220-224 (2001). The Supreme Court of Ohio affirmed Jalowiec's
conviction and sentence of death. Jalowiec, 91 Ohio St.3d at 240. The appellate history also
includes: State v. Jalowiec, 9th Dist. Lorain No. 96CA006445; 1998 WL 178554 (Apr. 15, 1998)
(direct appeal; affirming conviction); State v. Jalowiec, 9th Dist. Lorain Nos. 01 CA007844,
01CA007847, 2002 WL 358637 (Mar. 6, 2002) (appeal of dismissal of motion for postconviction

Appendix, p. A- 29

2

relief and three subsequent amended motions for postconviction relief), appeal not accepted, 96
Ohio St.3d 1439, 2002-0hio-3344; Jafowiec v. Bradshaw, N:D.Ohio No. 1:03 CV 0645, 2008
WL 31265 5 (Jan.· 31, :2008)' (detiial ·ofpetitiori for writ of habeas corpus); Jalowiec'v. Bradshaw, ·
657 F3d 293 (6th Cir.2011) (affimiing demal of WI'it of habeas corpus); Jalowiec, 2015-0hio5042 (affirming denial of motion for. new trial), appeal not accepted, 149 Ohio St.3d 1405, 2017Ohio-2822.
{~3}

In January 2017, Jalowiec filed a motion for leave to file a motion for a new

mitigation trial pursuant to Crim.R. 33 and Hurst v. Florida, 136 S.Ct. 616 (2016). Attached to
the motion was Jalowiec' s proposed motion for a new mitigation trial. The State responded in
opposition. The trial court ultimately denied the motion for leave to file the motion for a new
mitigation trial.
{~4}

Jalowiec filed this timely appeal, raising two assigrnnents of error for our review.
II.

Assignment of Error I
The trial court erred when it denied Jalowiec leave to file a motion for new
trial seeking to assert a constitutional challenge to Ohio's death penalty
scheme based on the United States Supreme Court Ruling in Hurst.
{~5}

In his first assignment of error, Jalowiec contends that the trial court abused its

discretion when· it denied him leave to file a motion for a new mitigation trial based on Hurst
because his motion established by clear and convincing evidence that he was unavoidably
delayed from presenting the basis for a new trial within fourteen days of the verdict in this case.
{~6}

Jalowiec filed his motion for leave to file a motion for a new mitigation trial

pursuant to Crini;R.33, which.states that ari application for a new trialshall be·made.by motion·.
within fourteen days after the verdict is rendered, ·''unless it is made to ·appear by· clear and ,

Appendix, p. A- 30

3
convincing proof that the defendant was unavoidably prevented from filing his motion for a new
tria1"*

~

*'. ." This Court has recognized that "' [a]!though. a defendant .may file his motion for. a . ·

new:trial·along wi1J.;l.;hi$·r~ques.tfor leave.to file.such,m 0tiqn,-the_tiial co~ut1 may notcon.~id~_r;_the·.
merits of the motion for a new trial until it makes. a finding qf unavoidabl~ delay:"' ·. Sta_te· v;_ . ·

Gilliam, 9th Dist. Lorain No. 14CA010558, 2014-0hio-5476,, 11, quoting State v. Cavender,
9th Dist. Lorain No. 11CA010093, 2012-0hio-6105, , 13. Although a trial court may err by
collectively entering judgment on a motion for leave to file and the motion for a new trial, such
error may be harmless if the trial court's denial of the motion for new trial is dispositive of the
unavoidable delay issue. Gilliam at if 11.
{~7}

In support of his argument that he was unavoidably prevented from filing his

motion within fourteen days of the verdict, Jalowiec argues that he was unavoidably prevented.·.·
from filing his motion :because. the ·basis .for the motiondhe Buprem.e Colll"t's dec.ision in, H;urstwas not decided until twenty years after he was sentenced. However, in denying Jalowiec's
motion for leave, the trial court did riot consider the issue of whether the motion for leave
contained clear and convincing proof that he was unavoidably prevented from filing his motion.
Rather, the trial court explicitly disregarded the requirements of Crim.R 33(B) a.Ild instead,
partially considered the merits of Jalowiec's attached motion for a new mitigation trial.
Specifically, the trial court stated that it "need not address" whether the motion for leave was
untimely or barred by res judicata because the matter could be resolved by considering whether
the Supreme Court of Ohio had upheld the propriety of Ohio's death penalty sentencing scheme
in light of Hurst when it decide~ State v. Belton, 149 Ohio St.3d 165, 2016-0hio-1581. The trial
court-determined, itdi&uphold the propriety.· of Ohio's death:.penalty sentencing scheme and.
denied Jalowiec' s'motion for leave ori that basis alone. ·. ··

Appendix, p. A- 31

4
{~8}

Although the trial court explicitly declined to consider Crim.R. 33(B), Jalowiec

contends in his first assignment of error that his motion for leave set forth clear and convincing
evidence that he was unavoidably delayed from presenting the basis for a new trial since the
Supreme Court's decision in Hurst was not decided until twenty years after he was sentenced. In
response, the State argues that the motion for leave was untimely because it was filed a year after
the Supreme Court's decision in Hurst, or in the alternative, that Jalowiec could have challenged
the constitutionality of Ohio's sentencing laws prior to the decision in Hurst by using existing
case law as support since Hurst did not present new law. See, e.g., State v. Mundt, 7th Dist.
Noble No. 17 NO 0446, 2017-0hio-7771. Although neither Jalowiec nor the State address the
fact that the trial court never ruled on

thi~

issue in their merit brief, the State urged this Court

during oral argument to affirm the trial court's denial of Jalowiec's motion for leave to file a
motion for a new mitigation trial since it is apparent from the record that the motion was
untimely.
{~9}

Nevertheless, as a reviewing court, we decline to address in the first instance

whether Jalowiec's motion for leave to file a motion for a new mitigation trial showed by clear
and convincing proof that he was unavoidably prevented from filing his motion for a new trial on
the basis outlined in his motion for leave as such a ruling would exceed our jurisdiction as an
appellate court. See Catalanotto v. Byrd, 9th Dist. Summit No. 27824, 2016-0hio-2815,

ii

12.

Additionally, even assuming without deciding that the trial court correctly determined that the
Supreme Court of Ohio decision in Belton upheld the propriety of Ohio's death penalty
sentencing scheme in light of Hurst, we note that when the trial court denied Jalowiec's motion,
the court overlooked Jaloweic's alternative argument that the application of Ohio's capital
sentencing statute was unconstitutional as applied in this case.

Consequently, we cannot

Appendix, p. A- 32

5

consider the trial court's error in not considering whether Jalowiec was unavoidably delayed in
filing his motion harmless in this case~ See Gilliam, 2014-0hio-54 76 at~ IL ..
{~10} ·

Therefore,Jalowiec's first assignment oferroris sustained·. ·;
· Assignment of Error Il

Ohio's capital sentencing statutes are unconstitutional and violate the Sixth
Amendment right to trial by jury because they require the judge, not a jury,
to make the factual determinations of the elements necessary to support a
sentence of death.
{~11}

In his second assignment of error, Jalowiec contends that Ohio's capital

sentencing statutes are unconstitutional and violate the Sixth Amendment right to trial by jury
because they require the judge, not a jury, to make the factual determinations of the elements
necessary to support a sentence of death. Jalowiec further contends that the capital-sentencing
scheme as applied in this

~ase wa~

unc?nstitutional due to the specific instructions given by the

trial court to the jury. However, in light of our resolution of Jalowiec's first assignment of error
we decline to address it.

III.
{~12}

Jalowiec's first assignment of error is sustained and we decline to address his

second assignment of error. Therefore, the judgment of the Lorain County Court of Common
Pleas is reversed this matter is remanded for further proceedings consistent with this decision.

Judgment reversed
and cause remanded .

. · · There were.reasonable grounds :for this appeal.
;··,.

Appendix, p. A- 33

1,,

6
We order that a special mandate. issue out of this Court, directing the Court of Common
Pleas, County of Lorain, State of Ohio, to carry this judgment into execution. A certified copy of
this journal entry shall~constitute the mandate, pursuant to App.R. 27.
''
;'.

Immediately upon the filing hereof, this document shall constitute the journal entry of
judgment, and it shall be file st~ped by the Clerk of the. Court of Appeals at which time the
period for review shall begin to run. App.R. 22(C). The Clerk of the Court of Appeals is
instructed to mail a notice of entry of this judgment to the parties and to make a notation of the
mailing in the docket, pursuant to App.R. 30.
Costs t~ed to Appellee. .

IE A. SCHAFER
R THE COURT

HENSAL, J.
CALLAHAN, J.
CONCUR.

APPEARANCES:
RICHARD A. CLINE, Senior Assistant Public Defender, and MICHELLE UMANA,
Public Defender, for Appellant.

~ssistant

·

DENNIS P. WILL, Prosecuting Attorney, and MATTHEW A. KERN, Assistant Prosecuting
Attorney, for Appellee.

Appendix, p. A- 34

No. _______________
IN THE SUPREME COURT OF THE UNITED STATES
______________________________
STANLEY JALOWIEC,
Petitioner,
v.
STATE OF OHIO,
Respondent.
______________________________
On Petition for Writ of Certiorari
To the Supreme Court of Ohio
______________________________________________________________________________
APPENDIX E TO WRIT OF CERTIORARI
State v. Jalowiec, Lorain County Common Pleas
Case No. 95CR046840, June 6, 2017 Judgment Entry
(Trial Court’s Initial Denial of Relief)
______________________________________________________________________________

Appendix, p. A- 35

I

FILED
CoUiHY

L©/~l-dN
1

~Bil JUN

-1 A IQ: I S

I

CSURT OF COMMCN PL!'IS
TOM ORli()RAIN COUNTY. COURT OF COM{;{ON LEAS .
LORAIN COUNTY, OHIO
JOURNAL ENTRY
·
Hon. D. Chris Cook, Judge

Date

June 5, 2017

Case No.

95CR046840

STATE OF OHIO

Anthony Cillo & Laura Dezort

Plaintiff

Plaintiffs Attorney

vs
STANLEY JALOWIEC

Richard Cline

Defendant

Defendant's Attorney

This matter is before the Court on Defendant's Motion For Leave to File a Motion For a
New Mitigation Trial.
The Motion is not well-taken and is DENIED. See Judgment Entry.
IT JS SO ORDERED. No Record.

VOL

cc:

PAGE _ _

A. Cillo, Chief APA
L. Dezort, APA
R. Cline, Esq.

Appendix, p. A- 36509

FILE.D
· 'L@~.&INCG!.H.il'l'

. , Zftll JUll:-1 A \O: ·\ g ,
URT G" cnr',;',[\'~ ?l.Ei>.S
co ·. TO'M o"r;U1iiGO

LORAIN COUNTY COURT OF COMMON PLEAS
LORAIN COUNTY, OHIO
JUDGMENT ENTRY
Hon. D. Chris Cook, Judge
Date

Case No.

June 5, 2017

95CR046840

STATE OF OHIO

Anthony Cillo & Laura Dezort

Plaintiff

Plaintitrs Attorney

vs
STANLEY JALOWIEC

Richard Cline

Defendant

Defendant's Attorney

This matter is before the Court on Defendant's Motion For Leave to File a Motion For a
New Mitigation Trial, filed January 12, 2017; the State's response in opposition, filed
February 13, 2017; and, Defendant's Reply to State's Response to Defendant's Motion
For Leave to File Motion For New Mitigation Trial, filed March 16, 2017.
Oral argument had on May 18, 2017.
The burden prerequisite to granting a Motion For a New Trial is upon the Defendant. A
motion for new trial pursuant to Crim. R. 33 is addressed to the sound discretion of the
trial court and will not be disturbed on appeal absent an abuse of discretion. State v.
Schiebel (1990), 55 Ohio St. 3d 71.
In the case at bar, the Defendant seeks leave to file a motion for a new mitigation trial
based primarily upon a relatively recent United States Supreme Court case finding
Florida's death penalty sentencing scheme unconstitutional. See: Hurst v. Florida
(2016), 136 S. Ct. 616. Defendant
opines that as Ohio's sentencing scheme in death
.
.
penalty cases is similar to Florida's, he should be granted leave to move for a new
mitigation trial.
In its response brief, the State posits four main objections to Defendant's Motion for
Leave, to wit: 1) this court lacks jurisdiction to even consider the Motion For Leave as
the Defendant's previously filed Motion For New Trial is currently pending on appeal for
certiorari in the Ohio Supreme Court; 2) the motion is untimely filed and barred by res
judicata; 3) as Hurst, supra, was decided in January, 2016, and Defendant's Motion For
Leave was filed one-year later, in January, 2017, Defendant's delay in filing the Motion
For Leave is "unreasonable," and; 4) the Ohio Supreme Court has upheld the propriety
of Ohio's sentencing scheme in death penalty cases in light of Hurst when it decided the

2

Appendix, p. A- 37510

matter of State v. Belton, 2016-0hio-1581, which found Florida's d.eath penalty scheme
inapposite to Ohio's.
The Court will address the issues seriatim.
1) THE TRIAL COURT LACKS JURISDICTION TO CONSIDER THE MOTION
.AS THIS CASE IS ON APPEAL TO THE OHIO SUPREME COURT
On May 17, 2017, the day before the oral argument in this matter, the Ohio Supreme
Court declined to accept jurisdiction of Defendant's appeal on Case No. 14CA010548.
As such, this issue is moot and the matter may proceed to decision on the merits.
2) THE MOTION IS UNTIMELY FILED AND BARRED BY RES JUD/CTA
Because this matter can be resolved based upon the analysis in Item "4" below, the
Court need not address this argument.
3) AS HURST1 WAS DECIDED IN JANUARY, 2016 AND DEFENDANT'S
MOTION FOR LEAVE WAS FILED ONE-YEAR LATER, IN JANUARY, 2017
THE DELAY IN FILING IS "UNREASONABLE"
Because this matter can be resolved based upon the analysis in Item "4" below, the
Court need not address this argument.
4) THE OHIO SUPREME COURT HAS UPHELD THE PROPRIETY OF OHIO'S
SENTENCING SCHEME IN DEATH PENALTY CASES IN LIGHT OF HURST
WHEN IT DECIDED BELTON2
On January 12, 2016, the United States Supreme Court found the State of Florida's
sentencing scheme unconstitutional in death penalty cases holding, "The Sixth
Amendment requires a jury, not a judge, to find each fact necessary to impose a
sentence of death. A jury's mere recommendation is not enough." Hurst at 1"]619 ..
Florida's death penalty sentencing scheme failed constitutional muster because .it
provided that a judge could impose death even where the jury did not find the
·
aggravating circumstances to exist prior to judicial consideration. Put another way, a
judge in Florida could increase !fie defendant's sentence to death even where a jury did
not make such a finding.
1
2

136 S. Ct 616 (2016)
2016-0hio-1581

3

Appendix, p. A- 38511

Ohio's death penalty sentencing scheme, however, is different. In Ohio, the jury must
find the requisite aggravating circumstances to exist beyond a reasonable doubt before
a judge may impose death. The judge may then accept the recommendation and
impose death or reduce the penalty to a term in prison (with or without) the possibility of
parole. As such, in Ohio, the trial judge is unable to increase the penalty recommended
by the jury, but may only reduce it.
In relying on Hurst to move for a new mitigation trial, the Defendant fails to explain why
the Ohio Supreme Court's decision in State v. Belton, 2016-0hio-1581, which was
dec.ided on April 20, 2016, three months after Hurst, is not dispositive.
In Belton, the Ohio Supreme Court distinguished Ohio's death penalty sentencing
scheme from Florida's. In analyzing Apprendi3, Ring4 and their progeny, the Ohio
Supreme Court held, "Ohio's capital-sentencing scheme is unlike the laws at issue in
Ring and Hurst. In Ohio, a capital case does hot proceed to the sentencing phase until
after the fact-finder has found a defendant guilty of one or more aggravating
circumstances." Belton, at '1159.
The Belton court further distinguished Ohio's sentencing scheme from Florida's holding,
"Because the determination of guilt of an aggravating circumstance renders the
defendant eligible for a capital sentence, it is not possible to make a factual finding
during the sentencing phase that will expose a defendant to greater punishment ... in
Ohio, if a defendant is tried by a jury, then the judge cannot impose a sentence of death
unless the jury has entered a unanimous verdict for a death sentence." Belton at '1159.
Ohio's approach, unlike Florida's (and Arizona's) has been directly commented on
favorably by the United States Supreme Cciurt. In Ring, supra, the high-court stated,
"... the great majority of States responded to this Court's Eighth Amendment decisions
requiring the presence of aggravating circumstances in capital cases by entrusting
those determinations to the jury." Ring at '11608. See also: Ring at Footnote 6, to wit:
"Of the 38 States with capital punishment, 29 generally commit sentencing decisions to
jurie~." Ohio is included in this reference.
This Court would further note, parenthetically, that if the Motion for a new mitigation trial
was granted, very little, if anything would change procedurally between the mitigation
trial held over 21 years ago and the trial that would'.be held today. Ohio's death penalty
sentencing statute remains constitution~lly sound and practically unchanged. As the

3

4

Apprendi v. New Jersey (2000), 530 U.S. 466.
Ring v. Arizona (2002), 536 US. 584

4
Appendix, p. A- 39512

process and procedure mandated for a mitigation trial is essentially identical today to
what occurred in 1996, the effort by Defendant to seek a new mitigation trial is, for all
practicable purposes, an attempt to re-litigate that which has already been decided and
upheld on review by multiple courts.
This Court has reviewed the Motion, Response, Reply, the applicable case law and has
considered the oral arguments of the parties. Given the foregoing, and in particular that
the Ohio Supreme Court in Belton found Ohio's death penalty sentencing scheme
constitutionally sound in light of Hurst, this Court can find no reason advanced by Hurst
or otherwise that would justify granting the Defendant a new mitigation hearing.
Accordingly, Defendant's Motion For Leave to File a Motion For a New Mitigation Trial is
not well-taken and is hereby DENIED.
IT IS SO ORDERED. ·No Record.

JUDGED.

5

Appendix, p. A- 40 513

No. _______________
IN THE SUPREME COURT OF THE UNITED STATES
______________________________
STANLEY JALOWIEC,
Petitioner,
v.
STATE OF OHIO,
Respondent.
______________________________
On Petition for Writ of Certiorari
To the Supreme Court of Ohio
______________________________________________________________________________
APPENDIX F TO WRIT OF CERTIORARI
Ohio Rev. Code Ann. § 2929.03 (1995)
Imposing sentence for a capital offense;
procedures; proof of relevant factors; alternative sentences
______________________________________________________________________________

Appendix, p. A- 41

Ohio Rev. Code § 2929.03 Imposing sentence for a capital offense.
(A) If the indictment or count in the indictment charging aggravated murder does not
contain one or more specifications of aggravating circumstances listed in division (A) of section
2929.04 of the Revised Code, then, following a verdict of guilty of the charge of aggravated
murder, the trial court shall impose a sentence of life imprisonment with parole eligibility after
serving twenty years of imprisonment on the offender.
(B) If the indictment or count in the indictment charging aggravated murder contains one
or more specifications of aggravating circumstances listed in division (A) of section 2929.04 of
the Revised code, the verdict shall separately state whether the accused is found guilty of the
principal charge, whether the offender was eighteen years of age or older at the time of the
commission of the offense, if the matter of age was raised by the offender pursuant to section
2929.023 [2929.02.3] of the Revised Code, and whether the offender is guilty or not guilty of each
specification. The jury shall be instructed on its duties in this regard, which shall include an
instruction that a specification shall be proved beyond a reasonable doubt in order to support a
guilty verdict on the specification, but such instruction shall not mention the penalty which may
be the consequence of a guilty or not guilty verdict on any charge or specification.
(C)(1) If the indictment or count in the indictment charging aggravated murder contains
one or more specifications of aggravating circumstances listed in division (A) of section 2929.04
of the Revised Code, then, following a verdict of guilty of the charge but not guilty of each of the
specifications, and regardless of whether the offender raised the matter of age pursuant to
section 2929.023 [2929.02.3] of the Revised Code, the trial court shall impose a sentence of life
imprisonment with parole eligibility after serving twenty years of imprisonment on the offender.
(2) If the indictment or count in the indictment contains one or more specifications of
aggravating circumstances listed in division (A) of section 2929.04 of the Revised Code, and if the
offender is found guilty of both the charge and one or more of the specifications, the penalty to
be imposed on the offender shall be death, life imprisonment with parole eligibility after serving
twenty full years of imprisonment, or life imprisonment with parole eligibility after serving thirty
full years of imprisonment, shall be determined pursuant to divisions (D) and (E) of this section,
and shall be determined by one of the following:
(a) By the panel of three judges that tried the offender upon the offender’s waiver of the
right to trial by jury;
(b) By the trial jury and the trial judge, if the offender was tried by jury.
(D)(1) Death may not be imposed as a penalty for aggravated murder if the offender
raised the matter of age at trial pursuant to section 2929.023 [2929.02.3] of the Revised Code
and was not found at trial to have been eighteen years of age or older at the time of the
commission of the offense. When death may be imposed as a penalty for aggravated murder, the
court shall proceed under this division. When death may be imposed as a penalty, the court, upon
request of the defendant, shall require a pre-sentence investigation to be made and, upon the

Appendix, p. A- 42

request of the defendant, shall require a mental examination to be made, and shall require
reports of the investigation and of any mental examination submitted to the court, pursuant to
section 2947.06 of the Revised Code. No statement made or information provided by a defendant
in a mental examination or proceeding conducted pursuant to this division shall be disclosed to
any person, except as provided in this division, or used in evidence against the defendant on the
issue of guilt in any retrial. A pre-sentence investigation or mental examination shall not be made
except upon request of the defendant. Copies of any reports prepared under this division shall
be furnished to the court, to the trial jury if the offender was tried by a jury, to the prosecutor,
and to the offender or the offender’s counsel for use under this division. The court, and the trial
jury if the offender was tried by a jury, shall consider any report prepared pursuant to this division
and furnished to it and any evidence raised at trial that is relevant to the aggravating
circumstances the offender was found guilty of committing, the mitigating factors set forth in
division (B) of section 2929.04 of the Revised Code, and any other factors in mitigation of the
imposition of the sentence of death, and shall hear the statement, if any, of the offender, the
arguments, if any, of counsel for the defense and prosecution, that are relevant to the penalty
that should be imposed on the offender. The defendant shall be given great latitude in the
presentation of evidence of the mitigating factors set forth in division (B) of section 2929.04 of
the Revised Code and of any other factors in mitigation of the imposition of the sentence of
death. If the offender chooses to make a statement, the offender is subject to cross-examination
only if the offender consents to make the statement under oath or affirmation.
The defendant shall have the burden of going forward with the evidence of any factors in
mitigation of the imposition of the sentence of death. The prosecution shall have the burden of
proving, by proof beyond a reasonable doubt, that the aggravating circumstances outweigh the
factors in mitigation of the imposition of the sentence of death.
(2) Upon consideration of the relevant evidence raised at trial, the testimony, other
evidence, statement of the offender, arguments of counsel, and, if applicable, the reports
submitted pursuant to division (D)(1) of this section, the trial jury, if the offender was tried by a
jury, shall determine whether the aggravating circumstances the offender was found guilty of
committing are sufficient to outweigh the mitigating factors present in the case. If the trial jury
unanimously finds, by proof beyond a reasonable doubt, that the aggravating circumstances the
offender was found guilty of committing outweigh the mitigating factors, the trial jury shall
recommend to the court that the sentence of death be imposed on the offender. Absent such a
finding, the jury shall recommend that the offender be sentenced to life imprisonment with
parole eligibility after serving twenty full years of imprisonment or to life imprisonment with
parole eligibility after serving thirty full years of imprisonment.
If the jury recommends that the offender be sentence to life imprisonment with parole
eligibility after serving twenty full years of imprisonment or to life imprisonment with parole
eligibility after serving thirty full years of imprisonment, the court shall impose the sentence
recommended by the jury upon the offender. If the trial jury recommends that the sentence of
death be imposed upon the offender, the court shall proceed to impose sentence pursuant to
division (D)(3) of this section.

Appendix, p. A- 43

(3) Upon consideration of the relevant evidence raised at trial, the testimony, other
evidence, statement of the offender, arguments of counsel, and, if applicable, the reports
submitted to the court pursuant to division (D)(1) of this section, if, after receiving pursuant to
division (D)(2) of this section the trial jury’s recommendation that the sentence of death be
imposed, the court finds, by proof beyond a reasonable doubt, or if the panel of three judges
unanimously finds, by proof beyond a reasonable doubt, that the aggravating circumstances the
offender was found guilty of committing outweigh the mitigating factors, it shall impose sentence
of death on the offender. Absent such a finding by the court or panel, the court or the panel shall
impose one of the following sentences on the offender:
(a) Life imprisonment with parole eligibility after serving twenty full years of
imprisonment;
(b) Life imprisonment with parole eligibility after serving thirty full years of imprisonment.
(E) If the offender raised the matter of age at trial pursuant to section 2929.023
[2929.02.3] of the Revised Code, was convicted of aggravated murder and one or more
specifications of an aggravating circumstance listed in division (A) of section 2929.04 of the
Revised Code, and was not found at trial to have been eighteen years of age or older at the time
of the commission of the offense, the court or the panel of three judges shall not impose a
sentence of death on the offender. Instead, the court or panel shall impose one of the following
sentences on the offender:
(1) Life imprisonment with parole eligibility after serving twenty full years of
imprisonment;
(2) Life imprisonment with parole eligibility after serving thirty full years of imprisonment.
(F) The court or the panel of three judges, when it imposes a sentence of death, shall state
in a separate opinion its specific findings as to the existence of any of the mitigating factors set
forth in division (B) of section 2929.04 of the Revised Code, the existence of any other mitigating
factors, the aggravating circumstances the offender was found guilty of committing, and the
reasons why the aggravating circumstances were sufficient to outweigh the mitigating factors.
The court or panel, when it imposes life imprisonment under division (D) of this section, shall
state in a separate opinion its specific findings of which of the mitigating factors set forth in
division (B) of section 2929.04 of the Revised Code it found to exist, what other mitigating factors
it found to exist, what aggravating circumstances the offender was found guilty of committing,
and why it could not find that these aggravating circumstances were sufficient to outweigh the
mitigating factors. For cases in which a sentence of death is imposed for an offense committed
before January 1, 1995, the court or panel shall file the opinion required to be prepared by this
division with the clerk of the appropriate court of appeals and with the clerk of the supreme court
within fifteen days after the court or panel imposes sentence. For cases in which a sentence of
death is imposed for an offense committed on or after January 1, 1995, the court or panel shall
file the opinion required to be prepared by this division with the clerk of the supreme court within

Appendix, p. A- 44

fifteen days after the court or panel imposes sentence. The judgment in a case in which a
sentencing hearing is held pursuant to this section is not final until the opinion is filed.
(G)(1) Whenever the court or a panel of three judges imposes a sentence of death for an
offense committed before January 1, 1995, the clerk of the court in which the judgment is
rendered shall deliver the entire record in the case to the appellate court.
(2) Whenever the court or a panel of three judges imposes a sentence of death for an
offense committed on or after January 1, 1995, the clerk of the court in which the judgment is
rendered shall deliver the entire record in the case to the supreme court.
HISTORY: 134 V H 511 (EFF 1-1-74); 139 V § 1 (EFF 10-19-81); 146 V S 4, EFF. 9-21-95.

Appendix, p. A- 45

